                                            FILE COpy


     GRANTEE COMPLIANCE WITH
           H:EAD START
STATUTORY ADMINISTRATIVE COST LIMIT




OFFICE OF INSPECTOR GENERAL

  OFFICE OF ANAL YSIS AND INSPECTIONS





                                         DECEMBER 1986

                           Off ice of the Inspector General



The mission of the Off ice          of the Inspector General
promote the eff iciency, effectiveness and integr i ty(OIG)
                                                       of
                                                            is to
                                                          programs
in the United States Department of Health and Human Services
(HHS) . It does this by developing methods to detect and prevent
fraud, waste and abuse. Created   by statute in 1976, the
Inspector General keeps both the Secretary and the Congress fully
and currently informed about programs or management problems and
recommends corrective action. The OIG performs its mission by
conducting audits, investigations and inspections with
approximately 1, 200 staff strategically located around the country.

                      Office of Analysis and Inspections


This report is produced by the Office of Analysis and Inspections
(OAI), one of the three major offices within the OIG. The other
two are the Office of Audit and the Office of Investigations.
OAI conducts inspections which are typically, short-term studies
designed to determine program effectiveness, efficiency and
vulnerabili ty to fraud or abuse.


                                       This Report


Enti tled " Grantee Compliance with Head Start Statutory
Administrati ve Cost Limit, "
                            this study was conducted to:
(1) review Head Start administrative cost levels and trends;

(2) review the status of existing administrative cost control

methods and policies; and, (3) review the benefits to the Head

Start program of grantee administrative services.
This report was prepared by the Regional Inspector General,

Off ice of Analys is and Inspections, Region VI. Participating         in

this review were the following people:


Ches ter    Slau hter        National Pro ect Director, OAI,     ion
Geor          Luna           National Lead Anal st, OAI,     ion
Tillie        Rod    ers         ort   Anal   s t,   OAI,   ion
Frank Almendarez                 ort   Anal   st,    OAI,   ion
Fer nando                        ort   Anal   st,    OAI,   ion
Leonard Cza                      ort   Anal   s t,   OAI,   ion
                      GRANTEE COMPLIANCE WITH

                            HEAD STAFT

                STATUTORY ADMINISTRATIVE COST LIMIT





                                                 DATE OF INSPECTION

RICHARD P. KUSSEROW

INSPECTOR GENERAL
                               DECEMBER 1986


OAI- 06- 86- 00069
EXECUTIVE SU   ARY

The Inspector General ini tiated        this study in response to
concerns voiced by Head Start officials that many Head Start
grantees exceed 
        or may soon exceed, the statutory 15 percent
admi nistrati ve cos t limi t; that administrative costs are in need
of greater control; and, that Head Start programs may not be
recei ving commensurate grantee administrative services for the
dollars paid for these services. The purpose of the study was
to:          (1) review Head Start developmental and administrative cost
levels and trends, including an examination of key factors
influencing these cost levels and the percentage of Head Start
grantees approaching or possibly exceeding the statutory 15
percent administrative cost limit; (2) review the status of
existing administrative cost control methods and policies; and
 ( 3) review the benef i ts to the Head Start program of grantee
administrative services.
This study surfaced the following     findings:
    There is a moderate, but potentially growing, problem with
    Head Start grantees equalling or exceeding the statutory 15
    percent administrative cost limit.

    Grantee ,lnd Office of Human Development Services       (OHDS)
    regional off ice respondentsreport that policy governing
    grantee administrative costs is not clear and explicit.
    Reliable summary statistical data on individual and total
    Head Start grantee administrative cost levels and trends are
    not available in ei ther OHDS central or regional offices.
    Independent audi tors do not examine grantee compliance with

    the 15 percent administrative cost limi t.

    Nonfederal share (NFS) contributions in excess of 20 percent,
    included in the total budget against which the 15 percent
    admini strati ve cost limi t is computed, directly affect the
    amount of Federal funds that can be utili zed by grantees for
    administrative services.
    Grantee and OHDS regional office respondents state that
    grantee compliance wi th the 15 percent administrative cost
    limit may become more difficult in the future.
The Inspector General reco TIends that OHDS:

    Strengthen its analysis of and controls over grantee

    administrati ve costs.


    Examine its administrative cost policy to provide more
    explicit standards and examples of administrative costs that
    will promote a more consistent definition of these costs by
    grantee and regional OHDS off ice staff. This clar ified
    policy standard should be issued via regulations.
    Secure the necessary Assistant Secretary for Management and
    Budget (ASMB) and' Office of Management and Budget (OMB)
    clearances to institute systematic reporting of additional
    administrati ve cost data, on an exception basis, for selected
    grantees, and require these grantees to submit a detailed
    breakdown of administrative costs with their funding
    applications.
    Require grantees to show, on the self-   certification
                                                        form, the
    projected total amount of administrative costs they expect to
    incur in operating the Head Start program.

    In consul tat ion with ASMB, revi se its program regulations to
    conform to departmental audit policy and notify all Head
    Start grantees of the Department I s audi t requirements.

    Request    for grantees affected by the Single Audit Act and
    for grantees exceeding or determined to be at risk of
    exceeding the 15 percent administrative cost limit, any
    addi tional audi ts which are necessary to carry out  its
    responsi bi 1 i ties to enforce the statutory limit on
    administrative costs.     Before requesting any additional
    audi ts, OHDS shou 1d coordinate with the OIG Off ice of Audi
    (OIG/OA) to determine the most feasible way to obtain the
    audi ts and to assure that no functions of the
    organi zation- wide audi t wi 11 beduplicated.
    Conduct further study to determine whether or not NFS
    contributions in excess of 20 percent should be included     in
    the total budget against which the 15 percent limi t
    compu ted
                          TABLE OF CONTENTS





                                                           PAGE

EXECUTIVE SUMMARY


PURPOSE

BACKGROUND

METHODOLOGY

FINDINGS AND RECOMMENDATIONS


    Patterns In Administrative Cost Percentage

      Levels
   Trends In Head Start Administrative Costs


   Grantees Equalling or Exceeding The Statutory

      Administrative Cost Limit
    Is The Statutory Provision Limiting Administrative

      Costs To 15 Percent Fair And Reasonable?


    Should The Head Start Administrative Cost

      Limi t Be Var ied Based On Grantee Total Funding?


    Is OHDS Policy Governing Head Start Grantee

      Admini s tra t i ve Costs Suff iciently Clear?

   Need To Strengthen Analysis And Controls On

      Grantee Administrati ve Costs
    Independent Audi tors Do Not Examine Grantee

      Compliance With The 15 Percent Administrative

      Cos t Limi t


    How Do Reg iona1 OHDS Staff Handle Problems With

      Grantees Exceeding The Administrative Cost

      Limi t?


    Reg ional OHDS Off ices Generally Neither Encourage

      Nor Discourage Grantee Indirect Cost Rates


    Regional OHDS Offices Are Sometimes Not Consulted

      In Establishing Indirect Cost Rates




                                  ii i
                    . . . . .




                                      TABLE OF CONTENTS

                                                (Continued)

                                                                                       PAGE

    Head Start Program Directors ' Concerns With

      Indirect Cost Rates


    Statutory Administrative Cost Limit Sometimes

      Prevents Full Reimbursement Of Indirect Costs


    Grantee Indirect Cost Rates Fairly Distribute

      The Cost Burden Among All Funding Sources


    Nonfederal Share Contributions In Excess Of

      Twenty Percent Included In Grantee Total Budget


    Most Head Start Programs Report Receiving Adequate

      Administrative Service Benefits From Grantees


    Grantee Compliance with Administrative Cost Limit

      May Become More Difficult In The Future


SUMMARY OF COMMENTS


ATTACHMENTS

Attachment 1                    Prof ile of Grantee Sample


Attachment                      Admi nistrati ve Cost                     Percentage
                                  by Grantee Type

Attachment 3        ..... Administrative Cost Percentage
                            by Grantee and Cost Type

Attachment 4        ..... Head Start Grantees Reported Equalling
                                  or Exceeding Statutory Administrati 


                                  Cos t Limi t


              4-A ... By Grantee Type

              4-B ... By Type Cost

              4 -C ...          By Reg     ion

              4-D       ... By Funding Level



Attachment 5        ..... Head Start Grantees Administrative
                            Cost Percentages by Funding Level
                       GRANTEE COMPLIANCE WITH

                             HEAD START

                STATUTORY ADMINISTRATIVE COST LIMIT





      PURPOSE

      The purpose of this program inspection was   to: (1) review
      Head Start developmental and administrative cost levels and
      trends, including an examination of key factors influencing
      these cost levels and the percentage of Head Start grantees
      approaching or possibly exceeding the statutory 15 percent
      developmental and administrative cost   limit;(2) review the
      status of existing administrative cost control methods and
      policies; and (3) review the benefits to the Head Start
      program of grantee administrative services.

II.   BACKGROUND

      For over 20 years the Head Start program has played a

      significant role in the effective delivery of comprehensive

      heal th, educational, nutritional, social and other services
      to economically disadvantaged children and their families.
      The Program is administered by the Administration for

      Children, Youth and Fami  lies(ACYF) wi thin the Off ice of
      Human Development Services (OHDS).
      By legislation, Federal financial assistance for a Head

      Start program shall not exceed 80 percent of the approved

      costs of the Program. However, Federal assistance in
      excess of 80 percent may be approved if OHDS officials

      determine that such action is required in furtherance of

      the purposes of the Program. Nonfederal contr ibutions are
      to make up the rest of the grantee s Head Start total

      budget.  The grantee shall not be required to obtain
      nonfedera1 contr ibutions in excess of 20 percent of the

      Program s approved costs.

          STATUTORY ADMINISTRATIVE COST LIMIT


          Head Start enabling legislation and pertinent
          regulations, P. L. 97-35 and 45 CFR 1301. 32, prohibit
          the expendi ture of more than 15 percent of the total
          approved grantee budget (Federal and nonfedera1) for
          the costs of developing and administering a Head Start
          program. Head Start funding applications in which such
                                - 1 ­

           costs exceed thi s limi t are not to be approved by
           authorizing officials without a waiver, which is not to
           exceed 12 months in duration. Each initial and
           subsequent grant application must include a signed
           certif ication that developmental and administrative
           costs do not exceed 15 percent of the total budget.
           Grantees must also keep records which fully disclose
           the amount and disposi tion of financial' assistance; the
           total cost of the project; the amount of that portion
           of the cost supplied by other sources; and such other
           records as will facilitate an effective audit and/or
           OHDS/Heal th and Human Services (HHS) review. If audi ts
           or financial reviews disclose actual grantee
           developmental and administrative costs in excess of 15
           percent of total costs, these costs are to be
           disallowed, unless author i zed by wai ver.

           ADMINISTRATIVE COSTS DEFINED

           45 CFR 1301. 2 defines developmental and administrative
           costs as " all costs other than those which are incurred
           in carrying out the education, health, social service,
           and parent involvement functions. These costs include,
           but are not limi ted to, the personnel and other costs
           of overall planning, coordination, general program
           direction, accounting, auditing, bonding, insurance,
           and the allocated costs of occupying, operating, and
           maintaining the space utili zed for those purposes.
           Developmental and administrative costs may be comprised
           of both direct and/or indirect cost components. Direct
           costs are those costs specifically incurred for Head
           Start.  Indirect costs are those costs necessary for
           the operation of the grantee I s overall organi zation,
           but not incurred for the benefit of any specific
           program, such as Head Start or Meals on Wheels.
           Usually, program costs are direct charges and most
           indirect costs are classified as administrative costs.


III.   METHODOLOG Y

       This program inspection focused on five Federal OHDS

       regions chosen to provide a diverse sampling of Head Start

       administrati ve cost control processes and administrative

       cost levels. These regions were representative in terms of
       total grantees (Communi ty Action Agency (CAAJ grantees,

       grantees having indirect cost rates (including a mix of

       high and low total indirect cost levels J) and total

       regional funding levels. Addi tionally, these regions had
       applied the Head Start Cost Management Instrument (HSCMI)
       to a significant number of their grantees.


                               - 2 ­

From these five reg ions    we drew a representative sample of
120 grantees. This sample, a 10 percent stratified sample
of the universe, reflected the characteristics of the
national Head Start grantee population in terms of numbers,
types and distribution of grantees. (See Attachment 1 for
a profile of regional sample grantees.
The inspection employed mailout questionnaires to ten
regional OHDS offices and to the sample of 120 grantees;
on - si te vi sits to four regional off ices, where structured
interviews were conducted with selected individuals from
the offices of OHD Grants Management and Programs, and the
Division of Cost Allocation (DCA); review of regional OHDS
grantee files 
    and telephone interviews wi th a sample of
67 grantee Head Start directors. The sample of Head Start
di rectors was selected from the 115 grantees who returned
completed questionnaires, and reflected the characteristics
of the grantee sample.

Following receipt of the mail- out questionnaires, the
on- si te interviews and
                       records review, and the telephone
interviews, OAI performed an in-depth analysis which
focused on patterns and trends in Head start administrative
costs.  This analysis      included:
                                  the identification of any
grante\, exceeding the statutory administrative cost limit,
and cost variations due to differences in grantee types,
funding levels, regional locations and the effect of
indirect costs 
      a review of the status of existing controls
on Head Start administrative costs; and a review of the
reported benef i ts to Head Start of grantee administrative
services.        In general, summary statistical data on Head
Start grantee administrative cost levels and trends were
not avai lable in either OHDS central or regional offices.
Therefore, administrative cost levels and trends data are
based on grantee self - report data. OAI did not perform
audi ts of grantees I records.




                            - 3 ­

                          ---        --- -----
                                 -..----
                                 ---
                          -.., , %

                          .. .. .. ..    ----
                                          ---           .. -----------
                                              --------..-----
                                               ---.. .. ------
                                           ----------......
                                         --....-----       .. ---- ------
                                                                    -----
                                                                    .. .. .. ..
                                                                      .. .. .. .. ..




IV.   FINDINGS AND RECOMMENDATIONS


          PATTERNS IN ADMINISTRATIVE COST PERCENTAGE LEVELS


         Admi n i str a t i ve cos ts as a percentage of total budgets
         for all sample grantees in 1983, 1984 and 1985:



         Adrninis1:..at ive Cas                        Pe.. cen 1: ages
                                         G.. arl 1:   ees




                  .(11%                     12%        13%   14%        =15%
                                          111111111
              1983                         1984                 1985
                            Percenta
                                                                      Graph 1





                                        - 4 ­

 As shown by Graph 1 and the table following, the number
 of grantees in var ious administrative cost levels have
 remained relatively stable over the last three years.
 There was, however, an increasing trend in numbers of
 grantees at the 11 percent and 14 percent levels.


                                            Number of Grantees At Each

                                     Administrat i ve Cost Percentaoe Level
Admi ni str at i ve        1983                    1984                1985                  3 Year Total
Cost Percentaoe
           Percentaoe             Percentaqe   r-o.   Percentaae                   Percentaae
    ( = 11                   43. 16%                40 . 59              41. 90%           126       41. 86



   11 - 11. 99%                                     12.                  15.                         12.

   12 - 12. 99%                                     10.

   13 - 13 . 99%             18.                    10.                  11. 43                      13.

   14 - 14.                  13.                    14.                  16.                         14.

   15 - 15. 99%

    ;, = 16
T ot al s                        100 '!     101     99. 99     105         100 %           301        100 '!
                                                                                                        TABLE




 Overall Administrative Cost Percentages


                          Total                    Total                   Percentage
                        Head Start              Head Start             Administrat

               Year      Budoet *         Administrative Costs *       Caste to Budaet

               1983        89.                                               $ 10. 7'!

               1984     $ 102.                     $ 11. 6                   $ 11. 3'!

                1985    $ 113.                     $ 12.                             11. 2",
              (* In Millions)                                                            TABLE 2

  Overall average administrative cost percentages
  reported by grantees show relatively          change from           Ii ttle
  1983 to 1985.   Total administrative costs of  sample
  grantees were reported to rise by 32% from $9. 6 million
  in 1983 to $12. 7 million in 1985. However, this rate
  of increase in administrative costs only slightly
  exceeded the rate of increase in total grantee budgets
  of 27%, accounting for only a slight overall rise
  the average administrative cost percentage of about 5%
  for the period of 1983 to 1985.




                                          - 5 ­

   mi ni   stra t i ve Cos   t Percentages By Grantee Type

      15 3




                  CAA         L GOV                   OTH            SCH B             UNIV
       IIII                             I " I " III
       1983                             1984                                    1985
CAA - COMMUN I TY ACT I ON AGENCY                            SCH     8 - SCHOOL 80A
L GOu - LOCAL GOUE NMENT                                     UNIU - UNIUERSITY
OTH - OTHE


                                                                                 Graph 2


An analysis of administrative cost percentages by
grantee type shows CAA percentages rose slightly (8. 9%)
from 1983 to 1984 and then declined slightly in 1985
for a small overall increase of 6. 9 percent over the
 three year period.             Administrative cost percentages for
 all other grantee types either declined slightly
 rema i ned unchanged.
 Table 3 shows the 3- year average of administrative cost
 percentages by grantee type. Attachment 2 shows that
                      of admi ni strat ive cost percentages
 the relat i ve ranki ng
 by grantee type were unchanged over this same period.



                                No.                   Rank          3 Year
                 Tvoe        Grantees      (Hioh To Low)           Averaae %

      Universities                                                    13.
      Local Governments                                               13.
       Other   Pri vat e

           Non- Profits                                               12.

       CAAs                                                           10. 6?,


       Schools                                                         8. 6
                                                                     Table 3


                                - 6 ­

 It is interesting to note that CAAs, which comprise
 about three-fourths of all Head Start grantees, report
 an average overall administrative cost percentage of
 10. 6 percent, a ranking lower than all other grantee
 types except schools. Reportedly, schools often simply
 do not charge Head Start for the full costs of
 administering the program.

 Comparison Of Administrative Cost Percentages For
 Grantees With And Without Indirect Cost Rates


                   Total Head Start     Tot al Head Start      Percentage Administrat i ve
Year   Type Cost       Budqet *       Administrative Costs *         Costs to Budaet

1983   Direct          $ 65.                  $ 7.                       10.
       Indirect        $ 24.                                             10.
1984   Direct          $ 71.4                                            11.
       Indirect        $ 31. 4                                           12.
1985   Direct          $ 76.                                             10.
       Indirect          37.                                             12.
* In Millions)                                                                     TABLE 4

 The overall average of administrative costs as a

 percentage of total budget for grantees with and

 without indirect cost rates shows some noteworthy

 di ff erences, although they do not di ffer radically.
 Average administrative cost percentages for grantees
 with indirect costs are about 10 percent higher than
 for those without. Also, average administrative cost
 percentages for grantees having indirect cost rates
 have risen by 12 percent over the 1983 through 1985
 period, whereas direct- cost- only grantees were
 unchanged.
 Average administrative cost percentages for CAAs having

 approved indirect cost rates for the 3- year period were

 11. 7 percent or about 16 percent higher than for
 direct- cost- onlyCAAs (10. 1 percent). The amount of
 increase in administrative cost percentages for CAAs
 having indirect costs rose by 12 percent from 1983 to
 1985, whereas percentages for CAAs wi th direct costs
 only rose by 3 percent. Average administrative cost
 percentages were also found to be somewhat higher for
 local government and other pr i vate nonprofit grantees
 wi th approved indirect cost rates than for grantees
 wi th direct costs only (see Attachment 3).




                                  - 7 ­

TRENDS IN HEAD START ADMINISTRATIVE COSTS


In general, summary statistical data on Head Start
grantee administrative cost levels and trends were not
available in either OHDS central or regional offices.
Partial documentation of administrative cost
percentages was available through the HSCMI - a cost
management system applied to grantees every third year.
However, as discussed below, some of these data were
inaccurate and had not been updated to show adjusted
administrative cost percentages following regional
off ice - grantee negotiations. Most available
administrative cost data are based on prospective or
budgeted costs rather than actual or audi ted costs.
Annual grantee independent audits rarely, if ever,
examine and document grantee administrative costs.
Moreover, grantee self- reported sample data, HSCMI data
and regional questionnaire responses on administrative
cost levels, particularly for those grantees exceeding
the statutory 15 percent limit, do not generally agree.

    Grantees Equallinq Or Exceeding The Statutory

    Administrati ve Cost Limit

    Data reviewed during this inspection indicate there
    is a moderate, but potentially growing, problem
    wi th grantees equalling or exceeding the statutory
    administrati ve cost limi t of 15 percent of total
    budget.   Grantee self - report data, including sample
    grantee questionnaires and Head Start director
    telephone interviews, regional OHDS questionnaires
    and HSCMI summary data for 1984 all report grantees
    exceeding the limi t by varying degrees.
        Grantee Self-Report Data

        As shown by Table 1 on page 4, an average of
        about l out of 4, or 23 percent, grantees
        reported administrative cost levels of 14
        percent or higher for the 3- year period. Seven
        of 95, or 7. 4 percent, in 1983; 10 of 101, or
          9 percent, in 1984; and 8 of 105, or 7.
        percent, in 1985, of the grantees equalled or
        exceeded the 15 percent  limit.  This represents
        an yearly average of 8. 3 percent of sample
        grantees who reported equalling or exceeding
        the administrative cost limit.


                     - 8 ­

At tachments 4A-4D provide breakdowns of
grantees equalling or exceeding the limit by
grantee type, regional location, presence or
absence of an indirect cost rate and grantee
funding level. A total of 25 grantees equalled
or exceeded the limit during the 1983 through
1985 period. Of these, 17 or 68 percent were
CAAs, 4 or 16 percent were local governments,
3 or 12 percent were other private nonprof i ts
and 1 was a school board. The percentages of
CAAs and other pr i vate   nonprof its over the
limi t   correspond almost exactly wi th  the
percentages of these grantees in our sample.
The percentage of local governments over the
limi t is double their representation in our
sample.
Of grantees equalling or exceeding the      limit,
17 or 68 percent were grantees wi thout indirect
cost rates and 8 or 32 percent had approved
indirect cost rates. These figures correspond
qui te closely wi th the percentages of such
grantees in our    sample. However, the
distribution of grantees over the limit
according to OHDS regional location was not
proportional to numbers of sample grantees from
each region. Regions II and IV were somewhat
overrepresented in that 72 percent of grantees
over the 1imi t came from these regions, whereas
their grantees comprised only 47 percent of our
sample. By contrast, Reg ions VI and VI
particularly Region VII, were underrepresented
in grantees over the limi t. There does appear
to be a correlation between a lower number of
grantees reported over the limi t in these
regions and the somewhat more thorough and
systematic reviews of administrative cost
levels noted in these two regions during our
inspection.
A review of grantees equalling or exceeding the
limi t according to funding level shows a
concentration of excessive administrative cost
rates among smaller si zed grantees. For
example, 10 grantees or 40 percent had total
budgets of $500, 000 or less and 10 grantees,
and another 40 percent, had total budgets
ranging from $500, 000 to $1 million. While
grantees of this size comprised about
percent of our sample they consti tute 80
percent of total grantees over or equal to the
limi t dur ing   the three year period. Stated
differently, 34. 5% or about 1 of every


               - 9 ­

grantees below $500, 000 in our sample equalled
or exceeded the       limit.
                         Likewi se, among very
large grantees, those with budgets ranging from
$3 to 5 million, three of six, or half of the
sample grantees, exceeded the limit.
The above indicates a si zable number of
grantees may merit increased management
at tent ion to assure their compliance with   the
15 percent statutory limit.


Other Data Sources On Administra ive Cost

Limi t   Compliance
Head Start Cost Management Instrument


The HSCMI system, which called for a fairly

rigoious breakdown of grantee administrative

and program costs, typically showed higher

administrati ve cost percentages than grantees
and regional OHDS staff report. For example,

in 1984, 73 of the grantees included in our
sample had the HSCMI reviews. Of these 73

grantees, a total of 18 or 25 percent were

found to exceed the 15 percent administrative

cost limit. By contrast, only 10 sample

grantees reported they had exc eded the 1imi t
in 1984, and OHDS staff in our sample regions

reported only 5 grantees were over the limit
dur ing   that year.OHDS staff in Reg ions II, IV
and X say these substantial differences are
largely accouhted for by the fact that   initial
inputs of HSCMI administrative cost data were

usually not adjusted to reflect regional office

corrective actions to adjust administrative

cos ts downward to acceptable levels.

Regional Staff Views On Grantees More Apt To

Exceed The 15 Percent Administrative Cost

Limi t


Eight of ten regional OHDS offices believe
certain types of grantees are more likely to
have problems in complying wi th the 15 percent
administrati ve cost limi t than others. Among
the commonly listed " problem " grantees are
small budget grantees; local government and
school grantees; large multi-layered or
multiple delegate agency grantees; and grantees
wi th " high" indirect cost rates who bill the
full amount authorized by their approved rates.

              - 10 ­

       Small agencies reportedly have more problems

       due to the limi ted funding base over which they
       must spread a minimum essential core of
       administrative services. Local governments and
       school di str icts contend they sometimes have
       di ff icu1 ties due to their high salar ies,
       tenured staff or excessive administrative
       overhead. Administrative costs also mount up
       very    quickly for very large multilayered
       agencies or multiple delegate agency grantees.
       Finally, those agencies whose funding base
       bei ng eroded through loss of programs or
       reduced budgets are also more liable to have
       difficulty staying under the administrative
       cost limit.
OHDS ADMINISTRATIVE COST POLICY

   Is The Statutory provision Limi ting Administrative
   Costs To 15 Percent Fair And Reasonable?
   A major i ty of respondents, including 74 percent of
    grantees and 69 percent of Head Start directors,
    state that the statutory provision limiting
    administrative costs to 15 percent of total Program
    costs is generally fair and reasonable.
    Seventy- one (71) percent of grantees with direct
    costs only and 81 percent of grantees wi th indirect
    cost rates responded that the administrative cost
    limi t is fair and reasonable.

    As shown by the following, administrative costs are

    higher for grantees stating that the 15 percent

    1imi t is not fair and reasonable.



       Limit F air and   Years/Administrative Cost Percentane
         Reasonab Ie       1983            1984         1985

             YES          10 . 14%        10. 23%      10. 28%
                          11.             13.          12.

    The main reason why some grantees and Program
    directors think the administrative cost limit
    not fair and reasonable is that grant funding
    awards have not kept pace wi th increased program
    administrative costs.



                         - 11 ­

Should The Head Start Administrative Cost Limit Be

Var ied Based On Grantee Total Funding?


Though a major i ty ofgrantees generally consider
the 15 percent administrative cost limit as fair
and reasonable, many state that the limit should
perhaps be varied based on grantee total funding.
Five of the ten regional OHDS off ices also
expressed this opinion.


                                Administrative Cost Limit
           ResDondents               Should Be Varied
  113 Grantees                              62%

  67 Head Start     Directors               37%

  10 Reqional OHDS Offices                  50%

Reasons for preferring an administrative cost limit
tha t var i es based on grantee total fundi ng are as
follows:
     Single purpose             agencies, unlike multipurpose
     agencies,           have no other funding sources to
     which they can charge the bas i c core of
     administrative services.
     Small grantees need more administrative dollars

     to obtain qualified staff and to cover core

     administrative services.
     Larger programs need larger staff to operate

     efficiently.
Data received from Head Start grantees suggests
there is a fairly consistent inverse relationship
between grantee total budget and average
admi nistrati ve cost            percentages.
                                   For example,
average administrative cost percentages are highest
for grantees with the smallest budgets, declining
steadily from the $500, 000 and under level through
the $ 3 million level. Administrative cost
percentages appear to rise again for the large,
multilayered grantees wi th budgets totalling more
than $3 million. This pattern is consistent with
feedback from regional OHDS personnel concerning
grantees most apt to have problems complying with
the administrative cost limi t, and wi th grantee
reported statistics on exceeding the limi t (see
Attachment 5).

                          - 12 ­

                                                g ., 
---




       As OHDS develops more complete and accurate

       administrative cost data on its grantee population

       it might be advisable to assess the

       cost- effecti veness and appropr iateness of employing
       administrative cost limits that vary by grantee

       funding level.
3 .	   Is OHDS Policy Governing Head Start Grantee
       Administrative Costs Sufficiently Clear?

       The extent to which the OHDS policy governing

       administrative costs is clear, explicit and

       uniformly interpreted by grantees and regional OHDS
       staff varies considerably, depending on the

       respondent.  For example:

       Po1icy Clear And Explici t?
       While 40 percent of the OHDS staff contacted stated
       that such policy is not clear and explicit, only
       percent of the responding grantees agreed.

       Policy Uni formly Interpreted By Grantees And

       Regional OHDS Staff?


                                    Percentage Indicating
                                     Policy Not Uniformly

                                          Interoreted
               Resoondents         By Grantee    By OHDS Staff

       109 Grantees

        20 Regional OHDS Staff          65%             25%

        10 Reoiona1 OHDS Offices        40%





       ACYF Information Memorandum 83-9, dated April 11,
       1983 includes examples of costs that may be
       considered administrative. Certain costs may
       benefit both direct program as well as
       admi ni strati ve functions (e.   the salary and
       benef i ts of a Head Start director who performs both
       program and administrative functions).
       That OHDS policy does not specifically indicate
       what percentage of certain costs should be
       admini strati ve or programmatic is cited as the main
       reason for administrative cost policy not being
       uniformly interpreted by grantees and regional OHDS
       staff  (e.g., some regional OHDS offices may



                             - 13 ­

        clas s i fy the salar ies   and benef   i ts of certain
        grantee staff (Head start director) as 100 percent
        administrative, yet grantees may classify the same
        cost as 60 percent programmatic and 40 percent
        administrative) .
RECOMMENDATION

    OHDS should examine its administrative cost policy in

    ACYF Information Memorandum 83-9 with a view to

    providing more explicit standards and examples of

    administrative costs that       will:
                                      (1) promote a more
    consistent defini tion of these costs by grantee and
    regional off ice staff, and (2) assure more uniform
    interpretation and enforcement of this policy.
    provide a more firm basis for regional office
    enforcement, this clarified policy standard should be
    issued via regulations, rather than as an information
    memorandum.
    STATUS OF OHDS CONTROLS ON GRANTEE ADMINISTRATIVE

    COSTS

    Head Start enabling legislation and pertinent




    program.
    regulations prohibit the expenditure of more than 15

    percent of the total approved grantee budget for the

    costs of developing and administering a Head Start


        Responsibilities And Methods For Verifying

        Compliance With The Administrative Cost Limit


        Officials at eight of the ten regional OHDS offices
        state that responsibili ty for ensuring Head Start
        grantee compliance wi th the 15 percent
        administrative cost limit is shared by both Office
        of Financial Operations (OFO) and Head Start
        program officials. At the other two regions
        program officials are viewed as having total
        responsibi1i ty for this function.

        Ver i fying
                  compliance wi th the developmental and
        administrative cost limit has been accomplished by
        several methods: verifying that the grantee
          bmi ts a signed certification that these costs do
        not exceed 15 percent of the total budget;
        performing a cost analysis of the grantee s budget
        at time of funding; and/or completion of the
        HSCMI .




                          - 14 ­

Certi f ication Of   Head Start Administrative
Cos ts

 . certification that  developmental and
administrative costs for a program year will
not exceed 15 percent of the total budget is to
be signed by an official from the grantee and
submi tted with each budget proposal. This
certi f ication also states that documents to
substantiate these costs are available in the
grantee s files for review by audi tor and
OHDS/HHS personnel.

Budget Analys is
Regional OHDS grants management staff, in

coordinat ion wi th Head Start program off icia ls ,
  e responsible for performing a cost analysis
of Head Start grant awards prior to funding to
determine the necessi ty, reasonableness and
allocability of the costs reflected in the
grantees I budgets.

Head Start Cost Management Instrument


In recent years OHDS began developing a cost
management instrument,   the HSCMI, designed to
provide addi tional information on grantee
program and administrative cost     factors.As it
pertains to administrati  ve costs, the HSCMI
requires that detailed administrative cost data
be provided by the grantee. Regional OHDS
staff generally agree that this instrument
adequately breaks out administrative costs and,
therefore, provides an effective means for
monitoring of these costs.
The HSCMI is, as a rule, to be completed every

three years for each grantee. OAI found that
the HSCMI, in six OHDS regions was being
completed by ACYF; in two regions by ACYF and
OFO jointly; and in two regions by the
grantees.  In most instances the instrument was
completed after telephone and/or wr i tten
communication between the regional offices and
the grantees.




            - 15 ­

   Subsequent to the start of this inspection,
   OHDS submi tted the HSCMI to the Off ice
   Management and Budget (OMB) for approval as a
   public use document.

   The HSCMI was not approved as a public use
   document. As a result, OHDS cannot request
   grantees to complete the HSCMI themselves, nor
   can grantees be requested to prepare data so
   that OHDS staff can complete the instrument.
   The only permitted use is for Head Start staff
   to extract data during on- site visits to the
   grantee and to gather data from existing OHDS
    sources.
Need To Strengthen Analysis And Controls On

Grantee Administrative Costs


Many regional OHDS staff state there are no
requirements for grantees to submi t detailed
administrati ve cost data wi th their funding
applications; that grantees ' signed " certification
that such costs do not exceed the 15 percent cost
1imi t is suff icient to satisfy OHDS requirements;
that completion of the HSCMI required this detailed
data be reviewed by OHDS staff; and that their
years of exper ience in working with grantees
sufficient to alert them to problems in this area.
As a result, cost analyses of Head Start
grant applications do not generally involve a
thorough, systematic review, nor do they determine
the specific level of grantee administrative costs.

Regional OHDS Cost Analysis Efforts Are Weak


The thoroughness of review of administrative costs
varies significantly from region to region.
Grantee records are generally not documented with
resu1 ts of cos t analys is. Whi Ie the grantees
signed " certification " indicates that
administrati ve costs do not exceed the 15 percent
limi t, it does not indicate the actual percentage
and amount of such costs. Therefore, not only does
OHDS not know the actual level of administrative
costs, it is also unable to determine what such
costs should be (i. e., are they necessary,
reasonable (excessive) and allowable).




               - 16 ­

Some regions report that lack of time and staff
prohibi t them fromconducting detailed cost
analyses.
Need To Upgrade Regional Cost Analysis Efforts


Chapter 15 of the OHDS Grants Administration Manual
sta tes, in part, that grants management staff, in
coordination with program office officials, are
responsible for perfo ming a cost analysis of Head
Start funding applications pr ior to funding to assure
that grantee costs are necessary, reasonable and
allowable.   The extent of a cost analysis will vary
among projects and shall be determined on the basis
of the amount and types of costs involved, the nature
of the project and past experience with the grantee.
A cost analysis may consist of an arithmetic
verification to assure that computations are correct,
a review to assure that costs identified are
allowable, and, if applicable, a determination of the
consistency of charges between direct and indirect
costs, as well as the application of the proper
indirect cost rate.
  L. 97-35, Section 644(b) states, in part, that in

any case in which it is determined that the costs of

administering a Head Start program does not exceed 15

percent of such total costs but is excessive, the

grantee shall be required to take such steps

prescribed by OHDS as will eliminate such excessive

administrative costs.
Need For Detailed Administrative Cost Data


Each regional OHDS office, at its own discretion, may
require detailed administrative cost data from Head'
Start grantees. At ten regional OHDS offices:
    One does request grantees to submit   detai led
    administrative cost data with their   applications.
    One requires grantees to place an asterisk by

    those costs considered by the grantee to be

    administrati   ve.
    One required such detai led  cost data only if it
    appeared that the 15 percent 1imi t would be

    exceeded; however, beginning with FY 86 budget,

    grantees wi 11 be requested to submit such
    detai led data wi th each grant proposal.

                   - 17 ­

    One, beginning with FY 86 budgets, has begun to

    review these administrative costs in greater
    detail, by having developed a form on which OFO

    will list the administrative costs after

    reviewing the grantee s application.


    Six do not request grantees to submit detailed
    administrati ve cost data with their applications.

Of 20 (8 OFO; 12 ACYF) regional OHDS staff
interviewed at four regional OHDS offices, 11 stated
that detailed administrative cost data should be
required wi th all grantee applications; 4 stated that
it should not be a requirement because of differences
between regional office and grantees in the
interpretation of what is/is not an administrative
cost, and because this data could be obtained upon
completion of the HSCMI every 3 years; and 1 stated
that it would not be possible to get this information
because the grantees themselves cannot determine what
is/is not an administrative cost.
There are no OHDS grant application guidelines that
require grantees to. submi t detailed administrative
cost data wi th their funding applications. However,
such requirement is implied by both the OHDS Grants
Administration Manual and P. L. 97-35, if a grantee
level of such costs is to be determined necessary,
reasonable and allowable.
OHDS Shou1d Reexamine Its Intended Usage Of The

HSCMI

Al though OMB has not approved the HSCMI as a public
use document, Regional OHDS staff generally regard
this instrument as a good tool for measuring overall
grantee costs. Many of them state that completion of
the HSCMI will provide the necessary breakdown of
cost data to determine the level of administrative
cos ts . Some state that annual completion of this
instrument would take care of problems in this area.
However, ACYF staff who have responsibili ty for all
aspects of the HSCMI preparation and input into the
national data base have ci ted the following
problems:
    Data entry is a long tedious process due to the

    number of entries required and the frequent poor

    system response time. A single HSCMI may take

    from 2 to 6 hours to input.




                - 18 ­

                         Staff shortages make it difficult to handle the

                         current HSCMI data input requirements.

                         Annual preparation might result in diminishing

                         returns, in that this staff feels most grantees

                         budgets do not change very much from year to

                         year.

               Another problem now facing OHDS is that grantees can
               no longer be requested to complete the HSCMI, nor can
               grantees be requested to prepare data so that OHDS
               staff can complete the instrument. As previously
               stated, the only permi tted use is for Head Start
               staff to extract data during on- site visits to the
               grantee and to gather data from existing OHDS
                sources.
                While many regional OHDS staff state that their years

                of experience in working with grantees will alert
                them to any problem (s) in this area, not only is the
                yearly level of administrative costs not known, but
                it is also not known if this level is excessive.
                Also, in the event of staff turnover, the new staff
                member (s) may lack exper ience in working wi
                grantees.
RECOMMENDAT IONS


       OHDS should change the self- certification form to
       require grantees to show the projected total amount of
       administrative costs the grantee expects to incur in
       running the program, not only that administrative costs
       are under 15 percent of total budget.
2 .	   OHDS should require selected grantees     e., those
                                                         (i.

       whose administrative costs exceed, equal or closely
       approximate the statutory administrative cost limit) to
       submi t a detailed breakdown of administrative costs
       with their funding applications. OHDS should secure
       the necessary ASMB and OMB clearances to                institute
       systematic reporting of addi tional administrative cost
       data, on an exception basis, for these grantees.

3 .	   Reg ional OHDS staff should utili ze this data in
       analyzing the amount and appropriateness of
       administrati ve                     costs.
                                These cost analyses reviews
       should carefully and clearly document and control the
       portion of time allocated to administrative and
       programmatic acti vi ties by all key grantee staff from
       year to year.
                                               - 19 ­

       Cost analysis findings should be systematically
       documented in grantee files each year to establish a
       baseline for moni      toring.
                                 Regional OHDS staff should
       accumulate summary records on administrative costs for
       ongoing moni    tor ing and management needs.
5 .	   For grantees with indirect cost rates, regional OHDS
       staff should check to avoid duplicate billing of costs
       as both direct and indirect by reviewing the makeup of
       the indirect cost pool against other administrative
       costs items.

6 .	   In light of OMB not approving the HSCMI as a public use
       document, OHDS should examine the HSCMI to determine
       this instrument can be utilized by its staff to stay
       abreast of administrative          costs. If
                                            OHDS determines
       that the HSCMI can be utilized, it should:
              Review the feasibility of completing this
              instrument, at least the administrative costs
              section, on an yearly basis for each grantee.
              Assure that regional grants management staff

              responsible for cost analysis of grantee budgets

              routinely consult the last HSCMI findings on

              administrative costs during their cost analysis

              acti vi ties.
              Make the necessary systems adjustments that would

              reduce the two to six hour system response time

              when HSCMI data input occurs.



       3 .	   Independent Audi tors Do Not Examine Grantee
              Compliance With The 15 Percent Administrative
              Cost Limit
                L. 97-35, Sections 647(a) and (b), state, in
              part, that recipients of financial assistance shall
              keep such records as will facili tate an effective
              audi t; and that the Secretary or any of his duly
              authorized representatives shall have access for
              the purpose of audi t and examination to any books,
              documents, papers and records of the recipients
              that are pertinent to the financial assistance
              recei ved.




                                - 20 ­

Head Start program regulations at 45 CFR
1301. 12(a), state, in part, that an audit of the
Head Start program covering the prior budget period
of each Head Start grantee and its delegate
agencies, if any, shall be made by an independent
audi tor to determine:  (1) whether the grantee
financial statements are accurate; (2) whether the
grantee is complying with the terms and conditions
of the grant; and (3) whether appropriate
financial and administrative procedures and
controls have been installed and are operating
effecti vely. No distinction is made between State
and local government and nonprof it grantees.
The Single Audi t Act of 1984 requires State and
local government grantees participating in the Head
Start program to obtain independent
organi zation- wide audits of their operations. OMB
Circular A-128 was issued pursuant to this Act and
established audit requirements for these grantees.
Departmental Regulations at 45 CFR Part 74, state
tha t recipients that are governments shall comply
wi t h requirements concerning nonfederal audits
OMB Circular A-128; and recipients that are not
governments shall comply wi th the requirements in
OMB Ci rcular A-IIO.

OMB Circular A- IIO requires all other Head Start
program grantees to obtain nonfedera1
insti tution- wide audi ts in lieu of individual
program audi  ts.  The Assistant Secretary for
Management and Budget (ASMB) and the OIG/OA
indicate that some confusion may exist among Head
Start grantees as a result of conflicts between
this OMB Circular and Head Start program audit
requi rements .
Per ASMB and OIG/OA, grantees that are not

governments are to be audited following Circular

  IIO guidelines. Therefore, OHDS is out of
compliance wi th departmental regulations by
requiring, per 45 CFR 1301. 2(a), audits of Head
Start programs using the Head Start Audi t Guide.
Per OHDS, until audit guidelines similar to those
delineated in Circular A- 128 are issued for
grantees that are not governments, it may continue
to require audi ts of nongovernment Head Start
programs using the Head Start Audit Guide.
However, if a nongovernment grantee requests an
organi zation- wide audit, OHDS will comply with the
request and accept the results of the audi



                  - 21 ­

ASMB and OIG/OA recognize that the issue of whether
grantees that are not governments are to be audited
following Circular A-IIO or 45 CFR 1301. 2 (a)
requirements may not be totally resolved until the
issuance of a revised OMB Circular A-llO, but they
view the existing Head Start regulation as
particularly misleading to these grantees. ASMB
and OIG/OA feel that OHDS must take some interim
immediate action to resolve confusion among the
Head Start grantee community.

Compliance review guidelines for grantees that are
not governments do not exist. Guidelines
established by Circular A-128 are used when
performing audi ts under Circular A-IIO. However,
these review guidelines do not include review of
the 15 percent administr ivecost limit.
addi tion, none of the audi t standards currently
being used by independent auditors when auditing
Head Start grantees mention review of grantee
records to determine compliance with the 15 percent
administrative cost limit.
At four regional OHDS offices, OAI reviewed

independent audit reports on 16 Head Start grantees

and did not find any evidence that Program

independent audits address grantee compliance wi
the 15 percent admi                nistrati ve cost 1imi        t.

Among regional OHDS offices there is a definite
difference of opinion as to whether the annual
Program audit should specifically review compliance
with the 15 percent limit: five regions stated
that the limi t should be addressed; four regions
stated that it should not; and one region stated
yes  (OFO) and no (Programs).


  Reasons for "Yes " Res       onses:
  (1) 15 percent limit is a statutory requirement and

        should be reviewed.

  (2) Most cost effective way for OHDS to monitor this
        area yearly.
        Pr id                                            sts.
  Reasons for    " No " Res   onses:
  (1)   Will result in excess Head Start program audit
        costs.
  (2) There is usually not a clear audit trail of

      costs, as grantee financial records do not

      always break out this information.

  (3) Audit period would not always be the same as

      the program year.

  (4) Won 't matter if go to "          single audit" (i.

        audit encom assin all            rantee ro rams).



                           - 22 ­

           Per the Single Audit Act and OMB Circular A- 128, to
           the extent that the organi zation- wide audit
           provides OHDS wi th information and assurances
           needed to carry out its overall responsibilities,
           it shall rely upon and use such information.
           However, OHDS can request any additional audi ts
           which are necessary to carry out its
           responsibili ties under Federal law and regulations.
           Such additional audits can include economy and
           ef f ic iency audi ts, program result audits, and
           program evaluations. Any additional audi t effort
           shall be planned and carried out in such a way
           to avoid duplication of the organization- wide audit,

                         audit.
           and OHDS shall arrange for funding the cost of any
           addi tiona1

RECOMMENDATIONS

       OHDS, in consultation with ASMB, should revise  its
       program regulations to conform to departmental audit

       policy and notify all Head Start grantees of the

       Department'   s audi t   requirements.
2 .	   OHDS should develop compliance review guidelines that
       will address grantee compliance wi th the 15 percent
       admini strati ve cost limit when grantees are audited
       under OMB Circulars A- 128 and A-        110.
                                               OHDS should
       request OIG/OA assistance in developing these
       guidelines.    These guidelines should be based upon a
       more explicit and consistent definition of
       administrative costs as issued in OHDS regulations, as
       recommended on page 14.

3 .	   OHDS should request, for grantees affected by the
       Single Audit Act and for grantees exceeding or
       determined to be at risk of exceeding the 15 percent
       administrati ve cost limit, any additional audits which
       are necessary to carry out its responsibilities to
       enforce the statutory limit on administrative costs.
       Before requesting any additional audi ts, OHDS should
       coordinate wi th OIG/OA to determine the most feasible
       way to obtain the audits and to assure that no

       functions of the organi zation- wide audit will be

       duplicated.
           How Do Regional OHDS Staff Handle Problems With

           Grantees Exceedinq The Administrative Cost Limi t?


           Sparing Use of Waiver Authority


           OHDS policy (ACYF-IM- 83-9) author i zes Head Start
           officials to grant waivers of up to 12 months
           duration to cover si tuations where grantees expect
                                - 23 ­

to exceed the administrative cost         However, limit.
regional questionnaires indicate only very sparing
use of this authority. Over the 3- year study
period only 16 waivers were requested, with
granted.
                            III.
          Half of these requests and approvals were
from Region       In 1985 only three waivers were
requested and granted, 1 each in Regions                III,
V and X. It appears that most regions prefer
negotiations or corrective action to reduce
potentially excessive administrative costs rather
than waivers authorizing them.
No Disallowances Of Excessive Administrative Costs


OHDS policy also specifies that when excessive
actual administrati ve costs are discovered by audit
or financial review " the excessive administrative
costs shall be disallowed"    During 1983, 1984 and
1985 none of the 10 OHDS regions reported                   ever
disallowing administrative costs  6ver the 15
percent limi t when such costs were detected
subsequent to funding awards through audits or
financial reviews. This is not surprising in view
of the fact that reg ions report audits rarely,
ever, address administrative cost compliance.

Prefunding Negotiation - The Method Regions                   Prefer
Prefunding negotiation between the regional OHDS
staff and grantee is the preferred method for
dealing wi th administrative costs known or expected
to exceed the 15 percent limi t. Regions try to get
agreement on what costs are administrative and then
seek voluntary grantee compliance on corrective
actions or target areas to                    reduce.
                                     Regions report
a wide variety of means may be used to reduce
overall administrative costs including:
         Reorganizing and eliminating or combining staff

         posi tions.
         Revising position descriptions.


         Revising or reallocating staff hours expended

         on program versus administrative functions.
          Increasing grantee nonfedera1 share

          contributions to expand the base for computing

          the 15 percent limi
          Disallowing indirect costs billed whenever               full
          payment would push the grantee over the
          statutory 15 percent limi t.

                                    - 24 ­

Doubtless, such   " front- end"   controls help hold down
administrative costs. However, the extent to which
such prefunding adjustments of budgeted or projected
administrative costs result in real decreases in actual
administrative costs, rather than mere bookkeeping or
paper changes, can only be verified by audits of
actual costs. Unfortunately, thi s rarely occurs.
INDIRECT COSTS


OMB Circular A-122 " Cost Principles for Nonprofit

Organi zations " and other OMB circulars govern the

definition of indirect costs and the calculation of

indirect cost rates for Head Start grantees.


Indirect costs are those costs which cannot be
specif ica11y identif ied wi th a particular project or
program but are nevertheless necessary to the operation
of an organi zation and the performance of its programs.
The cost of operating and maintaining       facilities,
equipment and grounds; depreciation or use allowances;
administrative salaries and supplies are typical
examples of the type of costs which are usually
considered as indirect costs at nonprofit
organi zations.

In theory, these types of costs might be charged
directly. However,      this approach is usually
impractical for many grantees. These costs, therefore,
are grouped into a common pool and distributed to
benef i ting acti vi ties by a cost allocation process. The
end product of this allocation process is an indirect
cost rate which is applied to individual projects
supported by grants, contracts and other agreements
wi th the Federal Government to determine the amount of
indirect costs applicable to each pro ject.

The indirect cost rate is a ratio, expressed as a
percentage, of the indirect costs to a direct cost
base.  The direct cost base is usually either total
direct cost  (not including capital expenditures and
other distorting items) or direct salaries and wages.
The base selected must produce an equitable
distribution of indirect costs. These costs are
reimbursed based on a cost rate, subject to statutory
or administrative limitations, as part of the total
cost of indi vidual awards.



                     - 25 ­

                                                     ). 

Indirect cost rates are established by agreement
between the organi zationand a cogni zant Federal agency
that acts on behalf of all Federal agencies
approving rates wi th   the organi   zation. With limi ted
exceptions, the Division of Cost Allocation (DCA)       in
the Regional Administrative Support Center
responsible for approving indirect cost rates for all
HHS grants and contracts.

Obtaining An Indirect Cost Rate


All grantees desiring reimbursement of indirect costs
must have a negotiated indirect cost       rate.
                                            The
grantee, to obtain an approved rate, will submit an
indirect cost rate proposal to the DCA. Along with the
proposal, the grantee submits financial information and
statements (usually in the form of consolidated
financial statements or independent audits) to
substantiate its request for the       rate.
                                        The proposal
and financial information is then reviewed in
accordance with regulations.
The DCA will ascertain that only allowable costs are
inc1 uded in the indirect cost pool for reimbursement;
that the indirect cost allocation procedures fairly
distribute the costs among all of the grantees
programs; and that there is no duplicate billing of
serviaes (i . e., billing for a service as both a direct
and indirect cost). After all required actions are
completed, the DCA advises the grantee of the indirect
cost rate to be used. The approved rates are
formal i zed by a Negot iat ion Agreement which reflects
the rates and information directly related to the use

of the rates (e.g., effective dates, base, etc.              The
Negotiation Agreements are published as part of an

overall Departmental system and are to be distributed

to all awarding agencies.


Grantees have obtained indirect cost rates primarily

for the following reasons:


   administrative cost reimbursement through direct

   charges was inadequate;
   reg ional   OHDS off icials required or encouraged
   thi s
   reg iona1 DCA off icia1s   encouraged this;




                            - 26 ­

..




            State Communi ty Service Block Grant officials

            required this; or


            other grantee administered programs required    this.
            Regional OHDS Offices Generally Nei ther Encourage
            Nor Discourage Grantee Indirect Cost Rates


            Of the ten regional OHDS off ices contacted.


                 Seven neither encourage nor discourage grantee

                 indirect cost rates.
                 One discourages grantees from obtaining

                 indirect cost rates because n direct costing

                 provides a better picture of administrative

                 costs and allows for more effective OHDS

                 monitori ng of such costs.
                 Two encourage grantees to obtain indirect cost
                 rates, one because of " DHHS Grants
                 Administrative Policy, " the other because it is
                 a fair method of determining a program s fair
                 share of grantee costs.
     2 .	   Problems Encountered With Indirect Cost Rates
            Approved By The DCA

            Regiona1 OHDS Offices Are Sometimes Not Consulted

            In Establishing Indirect Cost Rates


             Departmental guidance from the Off ice
            Procurement and Ass istance Financial Management,
            dated June 30, 1982 was sent to all the DCAs
            wherein they were directed to provide copies of
            indirect cost proposals from mUltiple- purpose Head
            Start grantees to the OHDS staff for their review
            and comment pr ior to the negotiation and approval
            of the grantees  I indirect cost rates.On July 20,
            1983 this guidance was followed by another
            memorandum to the DCAs requiring them to note on
            the Negotiation Agreements the specific components
             of the indirect cost pool. This was done so that
            OHDS staff, when reviewing grant applications,
            would be aware of what costs were treated as
            indirect so they could ensure that the same costs
            were not proposed, and approved, as direct costs in




                            - 27 ­

the grant award.   This information was to be
provided to aid OHDS staff in reviewing grantee
compliance wi th the 15 percent administrative cost
limitation.   Despite this guidance, so long as
grantee proposals complied wi th OMB guidelines, a
few reg iona1 DCA off ices were not convinced of the
benef it of or need for involving OHDS in any facet
of approving indirect cost rates.
DCA offices in seven regions usually consult with
OHDS staff prior to approving an indirect cost
rate.  This consultation may   include:  (1) ,advising
OHDS staff that a grantee rate proposal has been
recei ved; (2) providi ng OHDS staff with a copy of
the proposal for review (e. g., ascertaining that
there is no duplicate billing, and reviewing the
necessi ty of such costs); and (3) requesting OHDS

comments based on the review or on staff'

knowledge of a grantee s operation.

Though no action (s) may result from their review,
OHDS offices in these regions state that they at
least stay abreast of those grantees that obtain
indirect cost rates, and if questions concerning
indirect costs ar ise, they are able to readily
respond to them.


DCA respondents at the other three regions state

they do not advise OHDS staff of grantee requests
for indirect cost rates   because:  (1) there is no
requirement to do so, and  (2) they  used to advise
and/or provide copies of the requests, but stopped

after never recei ving any comments.


Other OHDS Indirect Cost Rate Concerns


At four regional OHDS offices, over one-half of the
staff interviewed reported other problems with the
indirect cost rates approved by the DCA:
    Fi ve believe rates are too high at times and,
    therefore, cause some grantees to exceed the

    percent administrative cost limit.
    Three state that potential for duplicate
    billing exists (i .
                      e., billing certain costs as
    both direct and indirect).


                - 28 ­

               Two are not sure how the indirect cost rate 

               calculated.
               One states that the Program does not receive a

               commensurate level of administrative services

               for the amount paid.


           Head Start Program Directors ' Concerns With

           Indirect Cost Rates


           Program directors interviewed in grantees having

           indirect cost rates, expressed several concerns

           with the indirect costs charged by grantees:
               Three state that the Program does not receive a

               commensurate level of administrative services

               for the amount paid.


               Two state that the Program was charged more than
               what was budgeted for administrative costs.

               Two state that directors are not involved
               the establishment of the indirect cost rate.

               One states that Policy Board members do not

               understand the effects of obtaining an indirect

               cost rate.
RECOMMENDATION

Regional OHDS offices should be actively involved in the

review of indirect cost rates, including obtaining copies

of indirect cost rate proposals from the DCA; reviewing

these proposals and being able to communicate any findings

to the DCA for appropriate action; and receiving copies of

the final approved indirect cost rates.

    3 .	   Statutory Administrative Cost Limit Sometimes
           Prevents Full Reimbursement Of Indirect Costs

           Some programs, including Head Start, have limi ts on

           the amount they will pay for administrative and

           indirect costs.  The result is that the grantee
           often unable to recoup the full amount of indirect

           costs due from the programs it administers.

           Of the ten regional OHDS offices contacted, seven

           sta ted they wi 11 reduce reimbursement of grantee
           indirect costs if full payment will cause total

           administrati ve costs to exceed the 15 percent
           administrati ve cost 1imi 


                             - 29 ­

       OMB circulars and OHDS policy clearly allow Head
       Start grantees to obtain indirect cost rates and to
       bill the Program for indirect  costs. Nevertheless,
       because of the statutory administrative cost limit,
       OHDS does not fully reimburse indirect costs when
       adding them to other grantee administrative costs
       would result in the grantee exceeding the 15
       percent limit. In other words, indirect costs
       billed are used as a final adjusting item to hold
       grantees under the 15 percent limit.

RECOMMENDATION

OHDS should issue a policy notif ication to grantees
apprising them that this practice will be commonly used to
reconcile conflicts between these two policy provisions.


       Grantee Indirect Cost Rates Fairly Distribute The

       Cost Burden Among Al1 Fundinq Sources

       Whi Ie some programs place a limi t on the amount
        they will pay for indirect costs, a majority of
        respondents (regional OHDS offices, grantees and
        Head Start directors) stated that the indirect cost
        rate chosen fairly distributes the cost burden
        among all of the grantees I funding sources. For
        example:
            Seven of ten regional OHDS offices stated that

            the Program does pay its fair share of indirect

            costs; one stated that in only one instance did

            it feel Program was paying a disproportionate

            share of such costs; and two stated that they

            did not know.


            Seventy-three (73) and 65 percent of the
            grantees and Head Start directors,
            respecti vely, stated that the indirect cost
            rate chosen fairly distributed the cost burden
            among all grantee funding sources.

    NONFEDERAL SHARE CONTRIBUTIONS

    Financial assistance for a Head Start program
    comprised of Federal and nonfedera1 share (NFS)
    contributions.  Federal financial assistance shall not
    exceed 80 percent of the program s approved costs. NFS
    contributions, which may be in cash or in kind, fairly
    evaluated, including plant, equipment or services, are
    to make up the remaining 20 percent of the program


                       - 30 ­

budget.    The grantee shall not be required to obtain
NFS contributions in excess of 20 percent of the
program I s approved costs. However, the grantee is not
prohibi ted from obtaining such contributions in excess
of 20 percent.

1 .	   Nonfedera1 Share Contributions In Excess Of
       Twenty Percent Included In Grantee Total Budqet

       In 1983, 1984 and 1985, 51, 62, and 55 percent of
       the grantees, respectively, reported that they
       recei ved NFS contr ibutions in excess of 20 percent.
       Of those, 39 percent stated that all NFS
       contributions were included in the total budget
       against which their 15 percent administrative cost
       limi t was computed.

       Seven of ten regional OHDS offices stated they
       allow grantees to include all NFS contributions in
       their total budgets against which the
       administrati ve cost limit is computed. One region
       states that it allows grantees to include all NFS
       contributions in their total budgets only under
       special circumstances 	  (i.
                                 e., if a grantee
       administrative costs will exceed the 15 percent
       limit, and after all other alternatives to lower
       the limit have been explored).

       Allowing grantees to include NFS contributions in

       excess of 20 percent of their total budgets, when

       computing their administrative cost limit, may

       result in the following:


          Allows the administrative cost percentage to

          remai n below the 15 percent limit (e. g., a
          grantee s administrative cost percentage
          reported as 13. 6 percent if NFS contributions of
          37 percent are allowed. However, if NFS
          contributions are limited to 20 percent, its
          administrative cost rate would exceed the limit
          at 18. 1 percent).

          Increases the amounts of funds that can be

          utilized by grantees for administrative services
          (e.g., a grantee receiving a Federal grant of
          $800, 000 can match it with $160, 000 of NFS
          contr ibutions and therefore, be entitled to at
          most $144, 000 ($960, 000 x 15 percent) of




                      - 31 ­

           administrati ve spending. However, if the
           grantee includes $300, 000 of NFS contributions
           in its proposed budget, the funds available for
           admini strati ve spending increases to $165, 000).
           If nonfedera1 contributions consist mostly of
           items that require substantial amounts of a
           grantee s administrative resources to manage,
           the grantee s administrative cost percentage
           might exceed the 15 percent limit (e.g., if NFS
           contributions are mostly volunteers, the costs
           of recruiting, training, etc., might actually
           cause the grantee to exceed the 15 percent
           limit).
        The number of grantees that would exceed the 

        percent administrative cost limit if their NFS

        contributions were held to 20 percent of their

        total budgets are as follows:

                  Total No    No. Grantees That
           Year   Grantees    Would Exceed Limit     Percentaqe
           1983                                          37%

           1984      101                                 94%

           1985      105                                 76%



        The increased amounts of funds uti Ii zed by sample
        grantees for administrati ve services as a result of
        being able to include all NFS contr ibutions in
        excess of 20 percent of their total budgets
        totalled $258, 028 from 1983 through 1985:

                               Number     Amounts
                    Year      Grantees    Per Year

                   1983                  $ 57. 336
                   1984                    90 071
                   1985                   110 621

                   Tot al s              $258 028

RECOMMENDATION

OHDS should conduct further study to determine whether or

not NFS contr ibutions in excess of 20 percent should be

included in the total grantee budget against which the 15

percent limi t is computed. Until such a determination 

made, OHDS needs to assure consistency among all regional
offices on how NFS contributions in excess of 20 percent of

the grantees I total budgets are handled.



                              - 32 ­

..




     BENEFITS TO HEAD START PROGRAM OF ADMINISTRATIVE

     SERVICES RECEIVED FROM GRANTEES


     Of 67 Head Start program directors interviewed, 54, or
     81 percent, stated the Program is receiving adequate
     administrative service benefits from grantees; 9, or 13
     percent, stated the Program is subsidi zing unnecessary
     or unreasonably high grantee administrative costs; and
     4, or 6 percent, did not know whether or not the
     Program is receiving sufficient administrative services
     from grantees.

     Directors stating that the Program is subsidizing
     unnecessary or unreasonably high grantee administrative
     costs ci te the following examples:
            Fi ve state that the problem stems from   indirect
            cos t   rates bei ng too high.
            Two state Program dollars are used to pay    other
            grantee programs    ' bills.
            One states that the Program receives no    services
            from the grantee.


            One states it is only a " feeli   ng .


     Indirect Cost Grantees


     Almost half of the interviewed Program directors, in
     grantees wi th indirect cost rates, do not think the
     grantee administrative services they receive are worth
     the indirect costs charged to the Program. However,
     only two directors were wi lling to state that either
     the Program was paying for services not received or for
     services its employees were already performing. Eight
     directors provided no explanation for their opinion
     that the Program was not recei ving a commensurate level
     of services. (Note:    One director stated that he knew
     of other directors being fired for questionning the
     amount of services received/not received from the
     grantee; another director wanted to find out who would
     be reading our report before he answered certain
     questions, presumably because of fear of losing his
     job.
     Some directors who think the Program does receive a

     commensurate level of administrative services from the

     grantee gave the following reasons why other directors

     percei ve def iciencies in grantee services:


                              - 33 ­

    Lack of communication between the grantee and the

    Program director as to what services would/would

    not be provided.


    The director s lack of understanding of which

    indirect costs are legi timate.
    Lack of involvement by the director and/or Policy

    Council in development of indirect cost rates

    (e.g., not wishing to be involved or not rightfully

    demanding to be involved based on the Program

    size and significance).

Eight of 20 regional OHDS staff respondents believe
grantee indirect cost charges are not justified by the
level of administrative support Head Start receives.
Three of them stated, respectively, that the Program
can perform administrative services more
cost- effectively than grantees; that the Program has
been able to provide its own administrative services
wi thout grantee assistance; and, even with indirect
cost rates, the grantee is still not rendering any
administrative services to the Program. The other five
provided no explanation for their            Most  opinion.
regional staff were not able to assess the benefits
associated wi th indirect charges.
It is interesting to note that OHDS staff stating the
Program does not receive commensurate services from the
grantee were from two of seven regional OHDS offices
that said the Program is paying its fair share of the
grantee I s   indirect cost rate.
FUTURE COMPLIANCE WITH ADMINISTRATIVE COST LIMIT


Grantee Compliance wi th The15 Percent Administrative
Cost Limit May Become More Difficult In The Future
The extent to which compliance problems are foreseen
var ies considerably, depending on the respondent. For
example:
                                Percentage Indicating Future
              ResDondents       Grantee ComDliance Problems

    115 Grantees                             23%

     67 Head Start Directors


     20 Regional OHDS Staff                  65%

     10 Reoional OHDS Office                 70%




                            - 34 ­

                                 - "




       The main reasons why Head Start grantees are expected
       to have difficulty complying with the 15 percent
       administrati ve cost limi t                      are as follows:

                                Reason                  Resoondents     Percentaqe
              Increases in administrative               Grantees           54%
              costs with no commensurate                Head Start
              increases in grantee budgets.               Directors        28%
                                                        OHDS Staff         15%

           2. Budget cuts              Gramm- Rudman-   Head Start
              Hollings                                    Directors        55%
                                                        OHDS StAff         69%

              Other funding         sources             Grantees           15%
              decreasing Dr         stopping            OHDS Regiona
              fundino.                                    Offices          71%


             * Percentages based on respondents            indicating   grantee
                problems in complying with the administrative cost

                limit .

       Increases in administrative costs stem from rising

       costs for insurance, administrative salaries and fringe

       benefi ts,       utili ties, transportation, etc.
       Some grantees have mandatory increases due to State

       laws. For example, at some school distr icts,
       specifically those functioning as Head Start grantees
       or delegate agencies, State law may provide that any
       person working for the school system is entitled to all
       benef i ts received by all school employees. Thus, a 17
       percent raise for school employees means a similar
       raise for Head Start employees affiliated with the
       school district.

       The Balanced Budget and Emergency Def ici t Control Act
       of 1985 (P. L. 99- 177, commonly known as
       Gramm-Rudman-Hollings) resulted in a 1. 4 percent
       reduction in Head Start grantee budgets for fiscal year
       1986.  Also, some grantees that receive additional
       funding from other sources have been advised by these
       sources that funding may be decreased or stopped.

SUMMRY OF COMMENTS
OHDS

OHDS stated the OAI inspection is thorough and identifies

key issues related to the monitoring and control of

administrative costs in the Head Start program. However,

             ngs.
OHDS did not specif ically comment on the inspection I s
recommendations, but limi ted its comments to technical
aspects of the report and the methodology used to obtain
the f indi
                                              - 35 ­

OAI and OHDS met to resolve and incorporate revisions, as
appropriate, for all technical and clarification questions
raised.   Conveying its general support for the thrust and
content of the report' s recommendations, OHDS asked OAI to
strengthen some of the recommendations. OHDS noted general
consistency between the report' s recommendations and      its
in- process or planned activities to address most of the
problems raised by the OAI        inspection.
ASMB

ASMB had two substantive comments affecting OAI      findings
and recommedations:

(1 )	    All references to the Head Start Cost Management
         Instrument (HSCMI) need to be updated to reflect OMB
         action.  OMB disapproved the instrument as a public
         use document. The only permitted use is for Head
         Start staff to extract data onsite and to gather data
         from existing sources. It is illeg l to request
         grantees to prepare the data so that Head Start staff
         can fill in the blanks.

( 2) Discus s ion on audit requirements is inaccurate:
     ( 1) under OMB Ci rcu1ar A- 110, nonprof it grantees are
     required to have organi zation- wide audi ts; and (2) the
     Single Audi t Act limi ts the audit requirements that can
     be placed on governments. Therefore, the first
        recommendation must be revised, and the second must
        point out that Head Start' s annual audi t requirement
        has to be revoked.

Concerning ASMB I S comments, OAI revised the report as     follows:
(1 )	    References to the HSCMI reflect OMB disapproval of the

         instrument as a public use document.


(2) OMB Circular A- IIO requires all other Head Start

    program grantees to obtain nonfederal institution- wide

    audits in lieu of individual program a      dits.
                                                   The

    Assistant Secretary for Management and Budget and the

    OIG/OA indicate that some confusion may exist among

    Head Start grantees as a result of conflicts between

    thi s OMB Circular and Head Start program audit

        r equ i r emen t s .
(3) Per ASMB and OIG/OA, grantees that are not governments

    are to be audited following Circular A-110 guidelines.

    Therefore, OHDS is out of compliance with departmental

    regulations by requiring, per 45 CFR 1301. 2 (a), audits




                               - 36 ­

.,




        of Head Start programs using the Head Start Audit

        Guide. Per    OHDS, until audit guidelines similar to
        those delineated in Circular A-128 are issued for
        grantees that are not governments, it may continue to

        require audi ts of nongovernment Head Start programs

        using the Head Start Audit Guide. However, if a
        nongovernment grantee requests an organization- wide
        audi t, OHDS wi 11 comply with the request and accept the

        results of the audi 


     (4) ASMB and OIG/OA recogni ze that the issue of whether
         grantees that are not governments are to be audited
         followi ng Circular A-I10 or 45 CFR 1301. 2 (a)
         requirements may not be totally resolved until the
         issuance of a revised OMB Circular A- IIO, but they view
         the existing Head Start regulation as particularly
         misleading to these grantees. ASMB and OIG/OA feel
         that OHDS must take some interim immediate action to
         resol ve confus ion among the Head Start grantee
        communi ty.




                            - 37 ­

                 ...




                             ATTACHMENTS




Attachment 1 ..... Profile of Grantee Sample


Attachment 2 ..... Administrative Cost Percentage

                     by Grantee Type


Attachment 3   ..... Administrative Cost Percentage
                       by Grantee and Cost Type

Attachment 4 ..... Head Start Grantees Reported Equalling or

                     Exceeding Statutory Administrative

                       Cost Limi t
           4-A ... By   Grantee Type

           4-B ... By   Type Cost

           4-C     By   Region

           4-D ... By   Funding Level


Attachment 5 ..... Head Start Grantees Administrative Cost

                       Percentages by Funding Level
..




                                                                                    ATT ACHMENT 1




                                      PROF ILE OF GRANTEE SAMPLE





      National Head Start
      Grantee Pooulation *                            Reaional Sam Ie Grantees

         Grantee
      (Cost TYoe)        Number   Percentaoe                         VII         Total   Percentaae
      CAA                  910      75.                                                     68.
        (Indirect)        (207)                         (17)   (4) (8) (2) (31)
        (Direct)          (703)                (14)     (8)    (19) (4) (6) (51)
      Other                                                                                 12.
      Pr i vat
      Non Profit

       (Indirect)          (14)                         (1) (1)     (1)
       (Direct)            (47)                ( 3)     (4)     (2) (3) (12)
      Schools
      Public and
      Private
       (Indirect)          (19)                        (2)         (1)
       (Direct)            (57)                        (2) (2) (1) (1)
      State and                      7. 3
      Local Gov '   t.
       (Indirect)          (21)                                            (1)
       (Direct)            (66)                ( 3)    (2) (3) (1)
      Hiqher
      Education
       (Indirect)          (23)                                (1) (1) (1)
       (Direct)             (2)                        (1)
      Other and
      Unknown
       (Indirect)
       (Direct)           (40)

      Tot al s           1199       100%                                         120        100%

       (Indirect)        (284)    (23. 7%)     (0)     (20)    (5) (9) (6)       (41)     (34. 2%)
       (Direct)          (915)    (76. 3%)     (20)    (17)    (24) (8) (10)     (79)     (65. 8%)

      * National Grantee Population from 1984 OHDS Grants Management Information System

     (GMIS) Report; * 99. 9% rounded)

,\




                                                                                 ATT ACHMENT 2




                      Administrative Cost PercentaQe by Grantee Type


                                  Grantee Se1f- Report     Data




      Type Grantee       No.            1983                   1984                   1985
                               Percentaae      Rank   Percentaae      Rank   Percentaae      Rank

     CAA                          10.                    11.                    10.

     Local Government             13.                    13.                    13.

     Other Private
        Non- Profit               12.                    12.                    11. 9%



     School

     University                   13.                    13.                    13.

     (* Only One Grantee Included)

                                                                    ATT ACHMENT 3




         Administrative Cost Percentaqe by Grantee and Cost Type


                            Grantee    5el   Report Data



                   No.
Tvoe Grantee     Grantees       Tvoe Cost         1983       1984         1985
 CAA                              Direct                    10.          10.
                                  Indirect      10.         11.9         12.

Local	                            Direct        13.         12.          13.
 Governments
                                  Indirect        N/A       18.          13.

Other	                           Direct         12.         12.          11.4
 Private

 Non- Profit                      Indirect      11.8        11.5         13.


School                           Direct	        11.0        11.1         11.6
                                  Indirect

Uni versit y	                    Direct           N/A        N/A          N/A

                                  Indirect      13.         13.          13.
                                                                              ***




                                                                              ATT ACHMENT     4"'A




                  Head Start Grantees Reported Equa11inq or Exceedinq

                          Statutory Administrative Cost Limit

                                     By Grantee Type


                                     Grantee 5e1 f - Report Data




              Number Equal or Exceedina 15 Percent Limit by Grantee Type

                          Samr Ie          1983      1984          1985    3 Year Total
       Type              No.                No.        No.          No.     No.
   Grantee            Grantee   Total     Grantee   Grantee   Grantee     Grantee(   Tot al



 CAA                                70%                                                68%

 Local

  Governments

 Other

  Private

  Non- Pro     fit


 School
 University

 Totals                115      100%                                                  100%
  * Grantees returning completed questionnaires.

 ** 5 CAA grantees exceeded limit in two or more years.

*** 1 Local Government grantee exceeded limit in two years.

                                                                                     ATT ACHMENT 4­




'C'

                      Head Start Grantees Reported Equallinq or Exceedinq

                              Statutory Administrative Cost Limit

                                               By Type Cost
                                         Grantee Self- Report    Data




                 Number Equal or Exceedinq 15         Percent    Limit by Type Cost

                          Sam Ie             1983       1984        1985       3 Year Tot al
          Type           No.                  No.        No.         No.       No.
          Cost        Grantee   Total       Grantee    Grantee     Grantee   Grantee     Total
       Direct                      67%                                                    68%


       Indirect

       Totals           115     100%                                                     100%

      * Grantees returning completed questionnaires.

                                                                      ATT ACHMENT 4­




              Head Start Grantees Reported Equa11inq or Exceedinq

                      Statutory Administrative Cost Limit

                                   By Reqion


                              Grantee Se1f- Report   Data




           Number Eoual or Exceedino 15 Percent Limit bv Renion

                 Sam! Ie        1983     1984        1985    3 Year   Total

                No.                                           No.

  Reoion    Grantee   Total      No.      No.         No.   Grantee     Tat a1


                      17.                                                28%


                      30.

                      25.

                      14.

                      12.


 Totals       115     100%                                              100%


* Grantees returning completed questionnaires.

, '





                                                                                    ATT ACHMENT 4­




                        Head Start Grantees Reported EquallinQ or Exceedinq

                               Statutory Administrative Cost Limit

                                                 By FundinQ Level
                                       Grantee Self- Report Data





                   Number Equal or Exceedinn 15 Percent Limit bv Fundina Level

                                 Samr Ie             1983     1984       1985      3 Year   Total
        Funding Level           No.                   No.       No.       No.       No.
        ($ Thousands)        Grantee   Total        Grantee   Grantee   Grantee   Grantee     Total
               500 & 8e1ow                 31%                                                 40%


               500 -   000


               000 - 2 000


         2 ,   000 -   000


               000 - 5 000


               000 - Above


        Totals                         100%                                                   100%

       * For 1985 - Grantees returning completed questionnaires with budget and

         administrative cost data for 1985

,,",




                                                                                     ATT ACHMENT 5




                                    Head Start Grantees

                              Administrative Cost Percentaqes

                                        By Fundinq Level


                                     1983                 1984                       1985
       Funding Level         No.       Average      No.      Average         No.       Average
        ($ Thousands)     Grantees      Rate     Grantees     Rate        Grantees      Rate
          500 & Below                   11. 5%                   11. 8%                 12.
          500 -    000                  11. 5%                   11.                    12.
          000 - 2 , 000                                          10.                    10.
          000 - 3, 000

          000 - 5 000                   11.6                     11. 6%                 10.
        5 000 - Above                                            15.                    15.
       Total
       Overall Average
         Rate                           10.                      11.                    11.
